           OFFICE OF 

    THE INSPECTOR GENERAL 


SOCIAL SECURITY ADMINISTRATION 



   CUSTOMER WAITING TIMES IN THE 

  SOCIAL SECURITY ADMINISTRATION’S

            FIELD OFFICES


     October 2010   A-04-10-11034   





AUDIT REPORT

                                     Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                    Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   •	 Conduct and supervise independent and objective audits and 

        investigations relating to agency programs and operations. 

   •	   Promote economy, effectiveness, and efficiency within the agency.
   •	   Prevent and detect fraud, waste, and abuse in agency programs and 

        operations. 

   •	   Review and make recommendations regarding existing and proposed
        legislation and regulations relating to agency programs and operations.
   •	   Keep the agency head and the Congress fully and currently informed of
        problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

   •	 Independence to determine what reviews to perform.
   •	 Access to all information necessary for the reviews.
   •	 Authority to publish findings and recommendations based on the reviews.

                                      Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   October 27, 2010                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Customer Waiting Times in the Social Security Administration’s Field Offices
        (A-04-10-11034)


        OBJECTIVE
        The objectives of our review were to determine whether the Social Security
        Administration (SSA) (1) had adequate procedures to monitor the length of time visitors
        waited for service at its field offices and, when applicable, (2) took actions to shorten
        long wait times.

        BACKGROUND
        SSA administers its programs and services through a network of approximately
        1,300 field offices that directly serve the public in communities throughout the United
        States and its territories. Field offices are SSA’s primary point of face-to-face contact
        with the public. Field offices are responsible for various workloads, including processing
        disability, retirement, and survivors claims; issuing new and replacement Social Security
        cards; and updating beneficiaries’ records for a multitude of post-entitlement actions.

        In many of SSA’s busiest field offices, staff may have only about 1 hour each day before
        the office opens to the public to prepare the daily schedule of appointments, attend
        training, read policy updates, and process pending claims and post-entitlement actions.
        Once the staff begins serving the public, they may spend a majority of their day
        interviewing visitors and working on time-sensitive actions. After a field office closes to
        the public, employees may use the remaining workday to process other actions.

        SSA has experienced a steady increase in the number of visitors to its field offices. In
        Fiscal Year (FY) 2009, SSA reported 45.1 million visits, compared to only 41.9 million
        visits in FY 2006.

        SSA’s automated Visitor Intake Process (VIP) helps control all stages of in-office visits
        and scheduled appointments. Additionally, VIP provides management information
        regarding the number of visitors, wait times, reason and duration of visits, and number
Page 2 - The Commissioner


of people who left the field office without service. Managers may customize VIP
information at the regional, district, and field office levels.

VIP requires that each visitor check in at an automated VIP kiosk where they receive a
numbered ticket. SSA representatives announce the visitor’s ticket number to notify the
customer that staff is available for the interview. Wait times begin when the visitor
checks in at the VIP kiosk and end at the point of the first substantive interview.

SCOPE AND METHODOLOGY
To accomplish our objective, we obtained and analyzed 21 months of VIP visitor wait
time data for the period August 2008 through April 2010.1 We then distributed a
questionnaire to each of SSA’s 10 Regional Commissioners. Each Regional
Commissioner was asked to provide detailed answers to wait time-related questions.
Specifically, the questionnaire solicited responses as to whether the Regional Office
(1) established wait time goals; (2) monitored wait times; (3) provided guidance on wait
time issues; and (4) took actions to improve wait times, when applicable. We also asked
the Regional Commissioners to explain why certain field offices had 3 or more months
(during our analysis period) where 20 percent or more of their visitors waited more than
1 hour for service.

We also visited five field offices in each of the Atlanta and New York Regions. At each
of the offices visited, we interviewed management and staff and surveyed 25 visitors. In
total, we surveyed 250 visitors to determine (1) their reason for visiting the field office;
(2) whether they had attempted to use SSA’s online and telephone services; (3) how
long they expected to wait at the field office; and (4) their satisfaction with the wait time
and service. For further details on our scope and methodology, see Appendix B.

RESULTS OF REVIEW
SSA closely monitored field office wait times at the national, regional, and field office
levels. Additionally, the Agency had various initiatives to reduce customer wait times.
Based on our review, we believe SSA is focused on providing timely service to its
customers—and, the majority of customers we interviewed agreed that SSA was
successful in this goal. However, SSA faces many current and future challenges in
maintaining and improving this level of service.

For example, a significant number of customers still waited more than 1 hour for
service. Additionally, many others left SSA field offices before receiving service.
Specifically, during the period March 1, 2009 through April 30, 2010 (the last 14 months

1
  We originally analyzed VIP data for a 12-month period from August 2008 through July 2009. However,
during the audit entrance conference in October 2009, SSA requested that we include August and
September 2009 wait time data in our analysis. Accordingly, we expanded our scope to include
14 months of VIP data (August 2008 through September 2009). Additionally, to present current and
relevant data in this report, we obtained and analyzed VIP data from October 2009 through April 2010.
As such, our review included 21 months of wait time data—August 2008 through April 2010.
Page 3 - The Commissioner


of our audit period), about 3.1 million visitors waited more than 1 hour for service, and of
those visitors, over 330,000 waited more than 2 hours. Further, in FY 2009, about
3.3 million visitors left a field office without receiving service. Although long field office
wait times is only one reason visitors may have left without service, not serving these
customers may result in repeat visits, increased traffic in field offices, and dissatisfied
customers.

To SSA’s credit, wait times improved during our audit period. During the first 14 months
of our 21-month audit period, 7.5 percent of visitors waited more than 1 hour for service.
In comparison, during the last 14 months of the audit period, the percentage of
customers who waited more than 1 hour decreased to 6.1 percent. This improvement
occurred despite an increase of over 1 million visitors. Additionally, the average visitor
wait time for customers without appointments decreased from 21.8 minutes in FY 2009
to 20.1 minutes during the first 7 months of FY 2010.

To meet the challenges it faces in minimizing customer wait times, SSA has focused
efforts on several initiatives, which include

	 hiring and training additional staff,
	 improving online services,
	 redesigning VIP,
	 implementing video service delivery,
	 improving telephone service infrastructure,
	 transferring pending workloads from very busy offices to less busy offices, and
	 implementing the Space Modernization and Reception Transformation Service
   (SMART).

We believe SSA should also ensure each of its regions establishes challenging, yet
feasible, wait time goals—taking into account each region’s unique circumstances.
Doing so would provide clear and consistent guidance to field office employees and
would help identify offices that may need additional resources or other forms of
assistance. Finally, we encourage the Agency to establish mechanisms to ensure
regions and field offices share and, if appropriate, adopt best practices for reducing
customer wait times.
Page 4 - The Commissioner


SOME CUSTOMERS CONTINUE TO EXPERIENCE LONG WAIT TIMES
A significant number of field office visitors experienced long wait times. Specifically,
during the 21-month period August 2008 through April 2010, approximately 5.2 million
(about 7 percent)—more than 1 in every 15—field office visitors waited more than
1 hour for service. Appendix C details by month the number of customers who waited
more than 1 hour.

During the first 14 months of our audit period, 7.5 percent of visitors waited more than
1 hour. This percentage decreased to 6.1 during the last 14 months of our audit period.
Although wait times improved during the most recent 7 months of our audit period
(October 2009 through April 2010), approximately 1.5 million of SSA’s 25.4 million
(about 6 percent) field office visitors still waited more than 1 hour for service. In fact,
more than 150,000 visitors waited over 2 hours during that same period.

Table 1 details the number of visitors who waited more than 1 hour for service during
our audit period.

             Table 1: Visitors Who Waited More than 1 Hour for Service
                                                             Number of   Percentage
                                                Total         Visitors    of Visitors
                                              Number of      Who Waited Who Waited
                  Months                       Visitors      Over 1 Hour Over 1 Hour
    August 2008 Through April 2010
                                              74,351,491      5,171,580          6.96%
             (all 21 months)
  August 2008 Through September 2009
                                              48,944,726      3,654,607          7.47%
            (first 14 months)
     March 2009 Through April 2010
                                              50,036,486      3,055,760          6.11%
            (last 14 months)
    October 2009 Through April 2010
                                              25,406,765      1,516,973          5.97%
         (most recent 7 months)

Additionally, a significant number of visitors left a field office without receiving service.
That is, after signing in to VIP, a visitor decided not to wait and left the field office
without service. During the 4-year period FYs 2006 though 2009, about 13.3 million
(7.6 percent) field office visitors left without service. Although we acknowledge that long
wait times are not the only reason a customer might decide to leave a field office before
receiving assistance, SSA officials with whom we spoke confirmed that it is one cause
for these occurrences.
Page 5 - The Commissioner


The percent of customers who departed a field office without service declined to
5.9 percent during the first 7 months of FY 2010. However, by not serving customers,
field offices may experience repeat customer traffic and decreased customer
satisfaction. Table 2 details the number of visitors who left field offices without service
from FYs 2006 through 2009.

        Table 2: Visitors Who Left Field Offices Without Receiving Service 

                             FYs 2006 Through 2009

                                                                   Percentage
                                                      Visitors     of Visitors
                                      Total          Who Left       Who Left
                                    Number of        Without        Without
                Fiscal Year          Visitors         Service       Service
                   2006              41,913,330       3,568,481       8.51%
                   2007              42,907,070       3,319,003       7.74%
                   2008              44,457,180       3,125,587       7.03%
                   2009              45,082,487       3,257,985       7.23%
                  4-YearTotals      174,360,067      13,271,056       7.61%

CHALLENGES TO SHORTER WAIT TIMES
Although SSA has made progress in addressing and reducing field office wait times, the
Agency has identified continued challenges to maintaining and further reducing wait
times. For example, in response to our questionnaire, Regional Commissioners cited
various reasons why certain field offices had a high percentage of visitors waiting more
than 1 hour, including increases in visitors and workloads and attrition of qualified and
experienced staff.

Increases in Visitors and Workloads
SSA has experienced a steady increase in the number of field office visitors. From
FYs 2006 to 2009, on average, the number of visitors increased by about 1.1 million
annually (see Table 3). Additionally, field office visits increased by about 163,000 per
month during the first 7 months of FY 2010 (October 2009 through April 2010).
Page 6 - The Commissioner


      Table 3: Increase in Number of Visitors from FY 2006 Through FY 2009
                                                             Percentage
                                               Increase       Increase
                                  Total          from           from
                   Fiscal      Number of       Previous       Previous
                    Year        Visitors         Year           Year
                    2006       41,913,330
                    2007       42,907,070       993,740          2.4%
                    2008       44,457,180      1,550,110         3.6%
                    2009       45,082,487       625,307          1.4%

The aging “baby boomer” population and the Nation’s current weakened economy have
resulted in an increase in SSA field office customers and work. SSA projected that in
FY 2010, it would receive approximately 400,000 more retirement and disability claims
than in FY 2009.

SSA’s customers visit field offices for various reasons, but many come to file benefit
claims or apply for an original Social Security number or a replacement Social Security
card. In FY 2009, SSA field offices conducted about 5.5 million interviews related to
disability, retirement, and survivors claims. Also, in the same year, field office staff
completed about 13.9 million interviews related to new or replacement Social Security
cards. The disability claim workload is both complex and time-intensive. As part of
processing a disability claim, field office staff often helps claimants complete detailed
forms about medications, medical treatments, work history, and daily activities. The
Social Security card workload has become more complex and labor-intensive as SSA
has implemented changes in response to legislation requiring a more detailed scrutiny
of Social Security card applicants.

Also affecting the increase in field office visitors is the significant increase in calls to
SSA’s national toll-free customer service telephone number. In FY 2009, SSA received
almost 86 million calls to its 800-number, an increase of about 3.9 percent from
FY 2008. SSA expects the number of callers will continue to increase. SSA’s
35 teleservice centers are responsible for serving callers. Teleservice center staff
answers questions, performs changes of address and telephone numbers, processes
requests for direct deposit and replacement Medicare cards, and schedules
appointments to local field offices for more complex issues.

SSA acknowledged that many callers to the 800-number received a busy signal. SSA
was also concerned that the inability to service customers over the 800-number caused
more customers to visit their local field office. Of the 250 visitors we interviewed,
34 had attempted to contact SSA via the 800-number. Of these 34 visitors, 18 were
unable to complete their business. As such, the customers visited the field office to
complete their business.
Page 7 - The Commissioner


Insufficient or Inexperienced Staff
Many of SSA’s experienced staff could soon retire. SSA estimates that from FY 2009 to
FY 2013, it may lose 22 percent of its employees to retirement. The Agency further
estimates it will lose 41 percent of its employees to retirement from FY 2009 to
FY 2018. Additionally, through retirement and other separations, SSA lost over
4,600 staff in FY 2009 and over 4,800 staff Agency-wide in FY 2010. The loss of
experienced staff can initially cause field offices to be less productive because new staff
requires significant training, mentoring, and on-the-job experience.

Also, staff training and leave schedules are a constant challenge in making staff
available to serve customers. For example, we visited one field office that, in recent
months, made significant improvements in reducing its wait times. However, we
observed some unusually long wait times during our visit. The field office manager
explained on that particular day, only 5 of the 11 claims representatives were available
to interview visitors. The other six claims representatives were unavailable for various
reasons, including sick and annual leave and jury duty responsibilities.

We recognize that SSA is continually challenged to retain, hire, train, and develop
qualified staff. Further, we understand the relationship between the number and
experience level of staff and the field office’s ability to timely process workloads and
interview customers. As such, we emphasize the importance of the Agency’s
recruitment, training, and employee development initiatives and encourage SSA to
properly plan for future staff attrition, amidst growing workloads.

SSA INITIATIVES TO IMPROVE CUSTOMER WAITING TIMES
To meet the challenges of increased visitors and expanding workloads, SSA has
committed to several initiatives, as described below.

	 SSA plans to hire approximately 900 additional staff—mostly for field offices. The
   additional staff will support SSA’s “stressed office” initiative. As shown in Table 4,
   812 of these new employees will be assigned to field offices in 5 SSA regions—New
   York, Atlanta, Chicago, Dallas, and San Francisco. Customer wait times is only one
   factor in SSA’s decision to include an office in this hiring initiative.2 However, the
   allocation of these resources appears reasonable given data indicating these
   Regions have higher average customer wait times and/or customers waiting more




2
 To identify a stressed field office, SSA evaluates such factors as the average daily claimant contacts per
employee, type and quantity of workloads, percent of non-English speaking visitors, and visitor wait times.
Page 8 - The Commissioner


    than 1 hour (see Appendix D). The planned increase in staff is in addition to the
    approximate 1,000 field office staff hired in FY 2009, which SSA funded, in part, with
    money received under the American Recovery and Reinvestment Act of 2009
    (ARRA).3

         Table 4: Field Office Staff Hired or to be Hired (as of July 9, 2010)
                          for the Stressed Office Initiative
                                                                    Total New
                          Number       Number of                   Employees
                                                     Number of
                              of       Employees                        for
                                                     Employees
             Region      Stressed        Already                    Stressed
                                                     to be Hired
                           Offices        Hired                      Offices
        Boston                     6             10           19             29
        New York                  50             57          169            226
        Philadelphia              11              3           29             32
        Atlanta                   19             27           56             83
        Chicago                   20             18           54             72
        Dallas                    18             56           53            109
        Kansas City                1              1            2               3
        Denver                     2              5            6             11
        San Francisco             62            119          203            322
        Seattle                    1              2            3               5
                  Totals         190            298          594            892

	 In December 2008, SSA launched “iClaim,” a new online (Internet) system with
   which individuals can apply for retirement benefits and complete a disability
   application. In FY 2009, over 30 percent of all retirement applications were filed
   through iClaim. Also, the percentage of disability applications filed online increased
   to 25 percent in FY 2009. SSA continues to explore additional methods for
   increasing online services.

	 SSA is redesigning the VIP system under the VIP Re-Write project. The redesigned
   VIP system will be Web-based, more user friendly, and provide improved
   management information. SSA plans to begin implementing the VIP Re-Write
   project in the spring of 2011.

	 SSA is also piloting a video service delivery project in its field offices. With this
   project, field office staff will be able to interview customers in remote locations via
   video equipment. Additionally, video service delivery may enable SSA to redistribute
   workloads among field offices, reduce claims processing times, and improve field
   office efficiency, all of which may ultimately reduce visitor wait times.


3
  Pub. L. No. 111-5, Division A, Title VIII, 123 STAT. 185-186. On February 17, 2009, the President
signed ARRA into law. SSA received about $1.09 billion in ARRA funds for program and operational
purposes.
Page 9 - The Commissioner


	 SSA is replacing its telephone systems with VoiceOver Internet Protocol (VOIP)
   technology. SSA stated that VOIP should provide (1) the flexibility to route calls
   from busy sites to less active sites and (2) improved management information
   regarding the number, type, and duration of calls. Additionally, to better address the
   increasing number of calls to its teleservice centers, SSA hired about 260 additional
   teleservice staff in FY 2009 and plans to open a new center in Jackson, Tennessee,
   in 2011. Finally, SSA plans to add automated 800-number applications to better
   respond to customers’ needs. For example, callers will be able to conduct a variety
   of transactions and listen to informational messages.

	 To make more staff available for customer interviews and prevent the backlog of
   workloads, SSA implemented procedures for transferring workloads from busy field
   offices to less busy offices.

	 SSA is also implementing the SMART program. SMART will provide for more
   efficient office space, which may help shorten visitor wait times.

Although we have not audited the effectiveness of these initiatives, we believe such
efforts should result in shorter customer wait times. Further, we believe SSA should
continue to explore other innovative methods to improve customer wait times.

OPPORTUNITES FOR FURTHER IMPROVEMENTS
We applaud the Agency for taking action to minimize field office visitor wait times.
However, we encourage the Agency to take additional measures to ensure it maintains
and further improves the timeliness in which it serves the public. Among these
measures, we believe SSA should ensure its regions establish field office wait time
performance measures and share best practices.

Customer Wait Time Goals
SSA officials with whom we spoke cited various limitations to establishing a “one size
fits all” national wait time goal. We acknowledge these limitations but believe the
Agency should, at a minimum, ensure its regions establish wait time goals and
measures. We believe these measures should be challenging, yet feasible; clearly
communicated to the field offices; and include more than just the average wait times for
customers with and without appointments. We believe establishing such goals would
provide clear and consistent guidance to field office employees and help identify offices
that may need additional resources or other forms of assistance.

Our questionnaire asked whether each regional office established wait time goals for
their field offices. Three regions responded that they had not established numerical wait
time goals while two regions indicated they had specific wait time goals. Although the
remaining five regions did not specifically state they had wait time goals, these regions
had wait time performance standards or benchmarks. Overall, 7 of the 10 regions
established a wait time goal, standard, or benchmark for their field offices.
Page 10 - The Commissioner


Notwithstanding the terminology, the wait time goals ranged from 20 minutes
to 45 minutes for visitors without appointments.

None of the regions, however, had goals pertaining to the number of visitors who wait
more than a specified time, such as longer than 1 hour. Because average wait times
may be tempered by many customers who wait only a few minutes, we believe
performance measures should also address the percent of customers who wait longer
than 1 hour to be seen. During our audit period, the average wait time for customers
was generally less than 30 minutes. However, a large number of customers waited a
long time for service. For example, of the 250 customers we interviewed during our
field office visits, 24 (9.6 percent) waited more than 1 hour for service. We also believe
the number of visitors who leave a field office without receiving service should be
measured and monitored—as these occurrences also may indicate long wait times and
customer dissatisfaction.

We acknowledge SSA encounters various challenges to providing timely service at its
field offices. To meet these challenges, SSA has committed to various initiatives. We
believe the success of these initiatives should reduce field office wait times while
maintaining quality service. We stress the importance of SSA ensuring these initiatives
are timely and successfully implemented.

Share Best Practices Among SSA Offices
Our questionnaire asked regional offices to provide us with their best practices for
improving wait times. Based on the regional responses, it was evident that SSA
explored innovative methods in developing best practices for shortening visitor wait
times. Several of the best practices are discussed below.

	 In May 2009, the New York Regional Commissioner developed written Principles for
   Reducing Waiting Times that she issued to her field office managers. The Regional
   Waiting Time Task Force developed 12 principles to better manage wait times. The
   principles covered such topics as optimal times to schedule interviews, proper use of
   VIP, when to open additional reception windows, how to categorize workloads, and
   the importance of management devoting time to observe reception areas.

	 In the Boston Region, one area office implemented procedures to redirect telephone
   appointments from field offices with a high volume of walk-in visitors to other field
   offices where staff was available to perform interviews.

	 Both the Atlanta and Dallas Regions created Websites to provide best practices to
   improve wait times. Field office managers can access the sites to find a list of best
   practices, frequently asked questions, helpful tips, useful resources, and other
   related information.
Page 11 - The Commissioner


	 In the Chicago Region, one area office piloted the VIP Reception Enhancement
   project. The project reviewed all aspects of the field office reception process.
   Specifically, a workgroup observed reception area practices in each area field office
   and compiled ideas for improvement. The ideas were shared with field office
   management and staff. Specific improvement actions were developed for each field
   office.

	 The Denver Region established separate waiting areas for customers with
   Social Security number-related business in some of its field offices. The Region
   found that dedicating certain staff to these visitors improved overall service at these
   field offices.

	 In the Seattle Region, the Northwest Regional Training Center developed a lesson to
   train staff on how to improve the interview process. Training center staff visit field
   offices and instruct staff on how to control interviews and promptly respond to
   customers’ questions. The training also includes exercises where staff performs
   interviews and receive instructional feedback.

We acknowledge SSA’s efforts to develop and implement best practices for improving
visitor wait times. We believe sharing best practices is a valuable tool in helping an
organization operate more efficiently. As such, we encourage SSA to track
components’ best practices for improving wait times and implement a process where
the best practices are shared among all Regions and field offices.

CONCLUSION AND RECOMMENDATIONS
SSA closely monitors field office wait times at the national, regional, and field office
levels. However, although wait times improved during our audit period, we believe the
number of field office visitors who experienced long wait times and left without service is
significant. SSA faces various challenges to improving field office wait times. To meet
these challenges, SSA has several initiatives, such as hiring and training staff,
improving telephone infrastructure and online services, VIP redesign, video service
delivery, transferring pending workloads, and redesigning field office workspace. We
believe the success of these initiatives is critical to reducing wait times while maintaining
quality service.

We recommend SSA:

1. 	 Ensure regional offices establish performance goals that measure average customer
     wait times, percent of customers who wait over 1 hour, and percent of customers
     who leave without service. We believe these measures should be challenging, yet
     feasible, and based on the unique circumstances of each region.

2. 	 Routinely evaluate the effectiveness of ongoing initiatives and, when necessary,
     take actions to ensure their success on a national level.
Page 12 - The Commissioner


3. 	 Develop a mechanism for regional and field offices to share best practices for
     reducing customer wait times and ensure that the mechanism is used.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendations 2 and 3 but disagreed with Recommendation 1. In
response to Recommendation 1, SSA stated it was not reasonable to establish a
“one size fits all” field office wait time performance goal—even at the regional level.
See Appendix E for the full text of SSA’s comments.

We continue to believe establishing performance goals would provide clear and
consistent guidance to field office employees and help identify offices that may need
additional resources or other forms of assistance. In fact, 7 of the 10 regions had wait
time goals, standards, or benchmarks for their field offices. Our recommendation would
simply formalize the establishment of such goals for all regions. As such, we encourage
SSA to reconsider its response to this recommendation when developing its corrective
action plan.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices 

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C –Visitors Who Waited More Than 1 Hour
APPENDIX D – Regional Wait Time Data for the 21-Month Period August 2008 Through
             April 2010
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ARRA          American Recovery and Reinvestment Act of 2009
FY            Fiscal Year
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
SMART         Space Modernization and Reception Transformation Service
SSA           Social Security Administration
VIP           Visitor Intake Process
VOIP          VoiceOver Internet Protocol
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we distributed a questionnaire to each of the Social
Security Administration’s (SSA) 10 Regional Commissioners. We asked each Regional
Commissioner to provide detailed answers to wait time-related questions. Specifically,
the questionnaire solicited responses regarding Regional wait time goals and guidance,
how wait times are monitored, and methods to improve wait times. We also asked the
regions to explain why certain field offices had 3 or more months (during our analysis
period) where 20 percent or more of their visitors waited more than 1 hour for service.

We initially obtained and analyzed 12 months of Visitor Intake Process (VIP) data for
August 2008 through July 2009. However, during the October 2009 audit entrance
conference, SSA requested that we also analyze August and September 2009 wait time
data. Accordingly, we based our regional office questionnaire on 14 months of VIP data
(August 2008 through September 2009). Finally, to present current and relevant data in
this report, we obtained and analyzed current VIP data October 2009 through April
2010.

We also visited five field offices in the Atlanta Region and five field offices in the New
York Region. At each of the offices visited, we interviewed management and staff and
surveyed 25 visitors. In total, we surveyed 250 visitors to determine (1) their reasons
for visiting the field office, (2) whether they had attempted to use SSA’s online and
telephone services, (3) how long they expected to wait at the field office, and (4) their
satisfaction with the wait time and service.

Additionally, we interviewed staff from SSA’s Office of Public Service and Operations
Support to (1) gain an understanding of how VIP obtains and processes information and
(2) determine how field office wait times are monitored.

The entities audited were SSA’s 10 regional offices and the Office of the Deputy
Commissioner for Operations, Office of Public Service and Operations Support. Our
review of internal controls was limited to gaining an understanding of SSA’s procedures
for monitoring field office wait times. We conducted the audit between October 2009
and May 2010 in Atlanta, Georgia; Birmingham, Alabama; New York, New York; Jersey
City, New Jersey; and Baltimore, Maryland. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                           Appendix C

Visitors Who Waited More Than 1 Hour
                                         Number of       Percentage of
                                        Visitors Who     Visitors Who
                          Number of     Waited over       Waited over
           Month           Visitors        1 Hour           1 Hour
   August 2008              4,180,090          283,388           6.78%
   September 2008           3,140,503          241,684           7.70%
   October 2008             3,958,744          326,099           8.24%
   November 2008            2,956,876          275,112           9.30%
   December 2008            2,739,142          244,543           8.93%
   January 2009             3,892,378          410,649          10.55%
   February 2009            3,447,272          334,345           9.70%
   March 2009               3,409,244          264,196           7.75%
   April 2009               3,304,051          218,865           6.62%
   May 2009                 3,838,544          224,259           5.84%
   June 2009                3,319,935          200,623           6.04%
   July 2009                4,037,698          238,342           5.90%
   August 2009              3,457,499          202,331           5.85%
   September 2009           3,262,750          190,171           5.83%
   October 2009             4,054,460          214,692           5.30%
   November 2009            3,022,745          177,787           5.88%
   December 2009            2,890,004          166,605           5.76%
   January 2010             4,237,823          343,774           8.11%
   February 2010            3,431,495          240,972           7.02%
   March 2010               3,578,682          195,556           5.46%
   April 2010               4,191,556          177,587           4.24%
                 Totals    74,351,491        5,171,580           6.96%
                                                              Appendix D

Regional Wait Time Data for the 21-Month
Period August 2008 Through April 2010
                                           Average   Number of     Percent of
                  Number
                             Number of      Wait    Visitors Who    Visitors
    Region        of Field
                              Visitors      Time    Waited over Who Waited
                  Offices
                                          (Minutes)    1 Hour     over 1 Hour
 Boston              72       3,247,257      17.8         150,427       4.63%
 New York           126       8,199,205      29.5       1,101,126      13.43%
 Philadelphia      141        6,242,028      20.6         391,692       6.28%
 Atlanta           253       15,401,008      20.7         993,096       6.45%
 Chicago           224       11,482,874      18.7         529,830       4.61%
 Dallas             142       9,521,636      21.9         753,528       7.91%
 Kansas City         74       2,881,138       9.7          18,770       0.65%
 Denver              53       1,795,783      19.7         130,233       7.25%
 San Francisco     163       12,926,197      22.7       1,032,684       7.99%
 Seattle            53        2,654,365      16.3          70,194       2.64%
         Totals    1301      74,351,491     19.8        5,171,580       6.96%
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY



MEMORANDUM



Date:      October 7, 2010                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Customer Waiting Times in Social
           Security Administration Field Offices” (A-04-10-11034)--INFORMATION

           Thank you for the opportunity to review the draft report. Attached is our response to the report
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          E-1 

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CUSTOMER WAITING TIMES IN THE SOCIAL SECURITY
ADMINISTRATION’S FIELD OFFICES” (A-04-10-11034)

Thank you for the opportunity to review the subject report. We appreciate your acknowledging
our commitment to public service and the statement that you “applaud the Agency for taking
action to minimize field office visitor wait times.”

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Ensure regional offices establish performance goals that measure average customer wait times,
percent of customers who wait over 1 hour, and the percent of customers who leave without
service. We believe these measures should be challenging, yet feasible, and based on the unique
circumstances of each region.

Comment

We disagree. While we agree it is important to monitor and improve field office (FO) wait
times, we do not agree it is wise to establish specific performance goals. Our FO managers
balance the need to provide service to customers who contact us by telephone with those who
choose to come to our FOs. We must continue to emphasize both service channels so as not to
disrupt this delicate balance. Our experience indicates that when we do not answer the
telephones in FOs, the walk in traffic increases. Even at a regional level, we do not believe there
is a reasonable “one size fits all” waiting time goal.

As your report indicates, we have been focusing on reducing customer wait times. In FY 2009,
about 7.2 percent of our visitors left without service, compared to FY 2010 (based on
information through July 2010) of about 5.7 percent. While we acknowledge that some of the
visitors to our FOs leave without service, it is difficult to quantify how many of those we can
attribute to long wait times. It is important to note that visitors may leave without service
because of our new service delivery tool, Social Security Television (SSTV). Our SSTV
technology educates visitors on what information or evidence they need for their visit to a FO.
For example, after viewing SSTV, a visitor may realize he does not have the proper
documentation to obtain a replacement Social Security number card. The customer may leave the
FO without service and return later with the proper documentation.

We also acknowledge that Visitor Intake Process (VIP) data may be skewed. Customers or
children sometimes push buttons on the kiosk, and there have been situations where VIP
produced multiple tickets for the same customer.

These are just some of the issues that make it undesirable for us to establish hard and fast
performance goals. Nevertheless, we will continue our efforts to lessen customer wait times and
reduce the number of customers who leave without service.




                                                E-2 

Recommendation 2

Routinely evaluate the effectiveness of ongoing initiatives and, when necessary, take actions to
ensure their success on a national level.

Comment

We agree. This is our current practice. We will continue to evaluate the effectiveness of
on-going initiatives and take any necessary actions to ensure their success on the national level.

Recommendation 3

Develop a mechanism for regional and field offices to share best practices for reducing customer
wait times and ensure that the mechanism is used.

Comment

We agree. This is our current practice. We will continue to monitor regional and field office best
practices for reducing customer wait times. When we determine a practice has proven successful
at the region level, we will consider if there is a broader applicability to adopt the practice
nationally.




                                                E-3 

                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-11034.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security 

Chairman and Ranking Member, Committee on Ways and Means 

Chief of Staff, Committee on Ways and Means 

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security 

Chairman and Ranking Minority Member, Committee on the Budget, House of 

Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government 

Reform 

Chairman and Ranking Minority Member, Committee on Appropriations, House of 

Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services, 

Education and Related Agencies, Committee on Appropriations, 

 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
